No.

In the Supreme Court of the United States

Eddie Tarver,
Petitioner
v.
State of Maryland,
Respondent

On Petition for Writ of Certiorari to the Maryland Court of Appeals

Motion for Leave to Proceed in Forma Pauperis
Pursuant to Supreme Court Rule 39.1, on this 30th day of June 2021
petitioner Eddie Tarver moves for leave to proceed in forma pauperis.

The

Maryland Office of the Public Defender has appointed me to represent Mr. Tarver
as an Assigned Public Defender. Md. Code, Crim. P. § 16-208. See Exhibit A.
Accordingly, no financial affidavit is attached.

/s/ William

L. Welch, III

William L. Welch, III
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
wlw@wwelchattorney.com
Telephone: (410) 615-7186
Facsimile: (410) 630-7760
Counsel for Eddie Tarver
(Appointed by the Maryland Office of the
Public Defender)

STATE OF MARYLAND

OFFICE OF THE PUBLIC DEFENDER
APPELLATE DIVISION
6 SAINT PAUL STREET, SUITE 1302
BALTIMORE, MD 21202

LAWRENCE J. HOGAN, JR.

Telephone: (410) 767-8555
Fax: (410) 333-8801
Toll Free: 1 (877) 430-5187
Maryland Relay: 1(800) 735-2258 In State: 711

PAUL B. DEWOLFE
PUBLIC DEFENDER

BECKY FELDMAN

DEPUTY PUBLIC DEFENDER

BRIAN SACCENTI
CHIEF ATTORNEY

GOVERNOR

March 12, 2020
William L. Welch, III
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
Re: Eddie Tarver vs. State of Maryland, Court
of Special Appeals, September Term, 2018, No.
2552
Dear Mr. Welch:
I am writing to inform you that the Court of Special Appeals has issued a decision in the
above case. As of May 1, 2015, both reported and unreported opinions may be accessed on the
Court’s website: http://www.courts.state.md.us/opinions/opinions.html.
As the Assigned Public Defender in this case, it is your responsibility to send a copy of
the opinion to the client. If the client was not successful in the appeal, it is also your
responsibility to advise the client of any further avenues of relief that may be available to the
client, for example, a petition for writ of certiorari to the Court of Appeals or a petition for postconviction relief.
It is within the scope of your assignment to file a petition for writ of certiorari in the
Court of Appeals if you determine that it is appropriate in this case. If you are unable to handle
the case in the Court of Appeals, this office will appoint another attorney to handle the case in
that Court.
If applicable, please advise the client to contact our Post Conviction Defenders Division
for assistance with filing a petition for post-conviction relief by writing to Post Conviction
Defenders Division, 217 E. Redwood Street, Suite 1020, Baltimore, Maryland 21202.

Sincerely,
/s/

BLZ/msd

Brian L. Zavin
Deputy Chief Attorney
(410) 767-8523

